                                  EVALUATION




 BUREAU OF LAND MANAGEMENT’S
 OIL AND GAS INSPECTION
 AND ENFORCEMENT PROGRAM




Report No.: CR-EV-BLM-0001-2009   December 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum                                                                      DEC 02 2010
To:            Robert V. Abbey
               Director, Bureau of Land Management

From:          Mary L. Kendall                         ~,-,-",""7&
               Acting Inspector General

Subject:       Evaluation Report of the Bureau of Land Management's Oil and Gas Inspection
               and Enforcement Program (Report No. CR-EV-BLM-0001-2009)

        This memorandum transmits the Office oflnspector General ' s evaluation report of the
Bureau of Land Management' s (BLM) Oil and Gas Inspection and Enforcement Program (I&E
Program). The objective of this review was to evaluate the effectiveness of the I&E Program and
to assess whether the program complies with laws and regulations.

       Our review was initiated because of allegations that some supervisors had discouraged
inspectors from executing enforcement actions against operators of oil and gas wells. We found
that most inspectors felt their enforcement actions were properly supported by supervisors.
Although a minority (10 percent) expressed a desire for greater support from supervisors and
managers, we could not find evidence that this diminished the overall effectiveness of the I&E
Program.

         We found many opportunities for improvement in the inspection strategy, the
performance of inspections, enforcement actions, training and retention of inspectors, and the
reliability of the program' s electronic database. Also, BLM has a history of not completing its
required number of production inspections. Although we believe the bureau can complete more
inspections as well as improve the quality of those inspections at its current funding level, a
workforce study might support a request for additional resources. Our report contains 12
recommendations that should improve the effectiveness of the I&E Program.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, target
dates, and titles of the officials responsible for implementation. Please address your response to:

        Ms. Kimberly Elmore
        Assistant Inspector General for Audits, Inspections, and Evaluations
        U.S. Department of the Interior
        Office of Inspector General
        1849 C Street, NW, MS 4428
        Washington, DC 20240



                               Office of Inspector General I Wash ington. DC
        We wish to thank the bureau for its cooperation during this evaluation. Through
interviews and an online survey, employees confided how the program was performing and
contributed their own ideas for program enhancement. If you have any questions about this
report, please contact me at 202-208-5745 .


cc:    Assistant Secretary, Land and Minerals Management




                                              2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings and Recommendations ............................................................................. 7
   Production Inspection Strategy ........................................................................... 7
   Resource Assessment .......................................................................................... 8
   Quality of Inspections ....................................................................................... 10
   Oil and Gas Regulations .................................................................................... 10
   Effectiveness of Enforcement Actions .............................................................. 11
   Database Integrity ............................................................................................. 14
   Training Requirements ...................................................................................... 15
   Retention Plan ................................................................................................... 16

Conclusion and Recommendations ....................................................................... 17
   Conclusion......................................................................................................... 17
   Summary of Recommendations ........................................................................ 17

Appendix 1: Scope and Methodology................................................................... 19
   Scope ................................................................................................................. 19
   Methodology ..................................................................................................... 19

Appendix 2: Employee Survey Results ................................................................ 20
Results in Brief
For decades, the Bureau of Land Management (BLM) has overseen the
exploration and development of oil and gas on public lands. Increased emphasis
on locating and developing new oil and gas reserves, however, has placed
growing pressure on the bureau to respond rapidly to demand. Such pressure
creates potential for both operational and environmental inspection lapses as
private companies apply for permits to tap Federal resources on public lands.

The mission of BLM’s Oil and Gas Inspection and Enforcement Program (I&E
Program) is to ensure full compliance with laws and regulations by oil and gas
companies operating on Federal and Indian lands. This is accomplished by
properly accounting for oil and gas production volumes, ensuring the safety of
operations, and protecting the environment.

We initiated our evaluation of the effectiveness of the I&E Program as well as its
compliance with Federal laws because of allegations that BLM supervisors
discouraged Petroleum Engineering Technicians (PET) from issuing Incidents of
Noncompliance (INC) against oil and gas well operators.

We found that most PETs felt supervisors supported their issuance of INCs and
other enforcement actions. BLM provides an INC as formal written notification of
an operator’s noncompliance with a specific regulation, with lease or permit
terms, or with the requirements of any notice or order. A minority of PETs (10
percent), however, requested more supervisory support. Nevertheless, we found
no evidence of inadequate supervisory or management support that diminished the
overall effectiveness of the I&E Program. We did find that INCs were
inconsistently applied, followed up, and resolved.

Our evaluation recognized the overall dedication and commitment of I&E
Program personnel to their mission and to their program’s compliance with
statutory and regulatory requirements. We found, however, many opportunities
for improvement. For example, BLM does not achieve the production and drilling
inspection goals established in its inspection strategy, nor does the strategy
sufficiently consider low-producing and nonproducing wells.

Additional issues include minimal oversight for inspections, lack of a policy that
establishes and maintains industry self-inspection, and inspectors spending too
much time on administrative duties rather than on performing inspections.

We also found that monetary assessments and civil penalties based on rates set in
the 1980s, fail to deter operator noncompliance. In addition, enforcement is
hampered because immediate assessments are limited to just four types of
infractions rather than authorized for potential use with each infraction.
Additional situations such as cases involving chronic offenders are not
immediately evaluated and pursued.
                                                                                     1
Although BLM has increased its environmental inspections in the oil and gas
fields, it still does not fully meet its environmental responsibilities. In particular,
we found that field offices having significant increases in drilling permit
applications do not complete all critical environmental inspections, thus
jeopardizing compliance with environmental laws, regulations, and policies.

In addition, the official electronic database for the I&E Program needs
enhancement due to problems with inaccurate data, the absence of a user-friendly
system, insufficient user training on the system, and inadequate data entry
controls.

We found the program could be strengthened and employee professionalism could
be enhanced by improving on-the-job training and mentoring, sharing promising
practices, developing fraud awareness and refresher training for inspectors, and
improving the training for environmental inspectors and Production
Accountability Technicians (PAT).

As part of our evaluation, we conducted a comprehensive online survey that
queried personnel on the I&E Program’s perceived effectiveness. Out of
approximately 600 employees, we received 421 responses, which included more
than 70 percent of the PETs and PATs. We believe the high response rate lends
credibility to our analysis throughout this report (survey data is presented in
Appendix 2: Employee Survey Results). In addition, employees provided
hundreds of narrative comments and suggestions for program improvement that
we considered in forming our conclusions and recommendations.

During the last 5 years, the Government Accountability Office (GAO) and the
U.S. Department of the Interior’s Subcommittee on Royalty Management have
also reviewed the I&E Program. Specifically, GAO concluded that BLM did not
accurately report its staffing needs for environmental inspectors and that it
inconsistently recorded the results of environmental inspections. 1 In another
report, 2 GAO found that BLM did not complete all required production
inspections and that data from completed inspections often appeared inaccurate
and incomplete. The Subcommittee on Royalty Management identified
weaknesses in I&E Program staffing levels, use and training of program staff,
communications problems, and outdated regulations. 3 Our findings are consistent
with each of these reviews.



1
  Government Accountability Office, No. GAO-05-418, Oil and Gas Development: Increased Permitting
Activity Has Lessened BLM's Ability to Meet its Environmental Protection Responsibilities, (June 17, 2005).
2
  Government Accountability Office, No. GAO-08-893R, Mineral Revenues: Data Management Problems
and Reliance on Self-Reported Data for Compliance Efforts Put MMS Royalty Collections at Risk,
(September 12, 2008).
3
  Subcommittee on Royalty Management Report to the Royalty Policy Committee: Mineral Revenue
Collection from Federal and Indian Lands and the Outer Continental Shelf, (December, 17 2007).

                                                                                                         2
Introduction
The Bureau of Land Management’s (BLM) Oil and Gas Inspection and
Enforcement Program (I&E Program) is responsible for ensuring the compliance
of oil and gas companies operating on Federal and Indian lands. The program
ensures the proper accounting of oil and gas production volumes, the safety of
operations, and the protection of the environment.

Objective
We evaluated the effectiveness of the I&E Program and assessed whether or not it
carries out its responsibilities as required by law, regulation, and policy.
Specifically, we asked the following questions:

   •   Is the annual I&E Program inspection strategy adequate?
   •   Are inspections being completed as required in both quantity and quality?
   •   Are inspections resulting in appropriate, consistent enforcement actions
       with timely resolutions?

Background
The Federal Oil and Gas Royalty Management Act (FOGRMA) of 1982 (30
U.S.C. § 1701) directed the Secretary of the Interior to at least annually inspect oil
and gas leases on Federal and Indian lands having significant oil and gas
production, as well as leases where operators historically have not complied with
laws or regulations. To meet the requirements of FOGRMA, BLM established a
strategy to inspect annually those cases (a single lease with one or more wells; or
many leases, usually contiguous, with multiple wells) with significant production
or compliance issues. As part of that strategy, all other cases are inspected every 3
years.

FOGRMA also established enforcement penalties for operators’ noncompliance
and required the Secretary of the Interior to provide trained inspectors to enforce
requirements. These duties are part of the I&E Program.

With an annual budget of $40 million, the I&E Program oversees approximately
112,000 oil and gas wells located on more than 23,000 producing leases on
Federal and Indian lands. The program employs approximately 330 inspection
personnel including Petroleum Engineering Technicians (PET), Production
Accountability Technicians (PAT), and various surface compliance specialists
(environmental specialists). Inspectors operate out of 32 BLM field offices,
primarily in California, Colorado, Montana, New Mexico, Oklahoma, Utah, and
Wyoming.

BLM’s Washington Office headquarters, state offices, and field offices design and
implement an annual inspection strategy that lays the foundation for the annual
work plan. The Washington Office prescribes the guidelines, policies, and
procedures for inspections conducted during the year. To ensure qualified

                                                                                      3
inspectors, the program also operates a yearlong training course resulting in
formal certification for graduates. Employees perform seven primary types of
inspections conducted, in order of priority. For example, drilling and plugging
inspections have the highest priority because they protect the environment and
underground resources. Inspection types consist of:

   •   Drilling inspections that involve all activities related to drilling a well.
   •   Plugging inspections completed for dry holes or wells at the end of their
       useful life.
   •   Production inspections occur during the productive life of the well,
       verifying for example, oil and gas volumes and site security.
   •   Environmental inspections ensure operators conform to all environmental
       regulations.
   •   Workover inspections focus on operators’ efforts to enhance well
       productivity through maintenance and well augmentation.
   •   Undesirable events inspections occur when sites have an accident
       involving a serious injury or fatality, a fire, an oil spill or gas leak, or a
       well blowout.
   •   Records verification inspections review an operator’s production and
       reporting records to ensure production is accurately accounted for.
Inspections play an important role in protecting public lands from environmental
degradation. Environmental inspections may be completed in all phases of an oil
or gas well’s life cycle, consisting of the following activities:

   •   Prior to surface disturbance, to record baseline conditions.
   •   At the time of site construction, to ensure surface disturbance is within the
       limits established in the approved permit.
   •   When drilling begins, to ensure a safe and clean operation.
   •   During production, to ensure a safe and clean facility, monitor
       environmental impacts and the effectiveness of interim reclamation and
       mitigation measures, and discuss reclamation requirements.
   •   During abandonment and reclamation, to ensure the well is properly
       plugged and reclamation is completed as planned.
   •   During final reclamation, to ensure the site is properly re-contoured,
       topsoil is returned to the disturbed areas, and the area is seeded. The site is
       continually monitored to ensure it is stable and re-vegetates.




                                                                                        4
Figure 1. PETs read flow meters as part of an inspection. Source: Office of Inspector General
(OIG).

Inspectors also have authority to take enforcement actions if violations are
uncovered. Enforcement tools consist of:

    •   Verbal warning, which is an oral warning of noncompliance.
    •   Notices of Incidents of Noncompliance (INC), which are issued for
        regulatory violations. INCs may include an immediate monetary
        assessment and are classified as either major or minor depending on
        impacts to health and safety, the environment, or production volumes.
    •   Written orders, which recognize problems that do not violate specific
        regulations.
    •   Civil penalties, which involve varying daily dollar fines calculated
        according to the severity of the violation.
    •   Authorization to correct instances of noncompliance using a private
        contractor, then billing the operator for incurred costs.
    •   Notice to Shut Down Operation, used to halt operations in the face of
        immediate threats to safety or the environment.
    •   Lease cancelations, which are used as a last resort if an operator fails to
        comply with previous enforcement actions.




                                                                                           5
                      Examples of Major and Minor INCs

 Major INCs:
    • Missing seal on sales valve of oil storage tank.
    • Commingling oil and gas production from other sources without
        BLM’s approval.
 Minor INCs:
    • Missing well identification sign.
    • Inadequate fencing around the water disposal pit to prevent access by
        animals and unauthorized personnel.

Figure 2.

In fiscal year 2009, BLM reported completion of 16,680 inspections resulting in
issuance of 6,403 enforcement actions (4,090 INCs; 1,902 written orders; 395
verbal warnings; and 16 shut down orders). BLM collected $129,000 in monetary
assessments and $130,000 in civil penalties. Bureau-wide, 4 percent of INCs
included assessments and 0.5 percent resulted in civil penalties.




Figure 3. Blowout Preventer. Source: OIG.

                                                                              6
Findings and Recommendations
Production Inspection Strategy
BLM has not performed the required number of production inspections
established in its inspection strategy. In accordance with FOGRMA, annual
inspections are required on those oil and gas wells that produce significant
quantities, have a history of noncompliance, or both. FOGRMA does not define
“significant quantities” and, accordingly, BLM develops its own criteria. In doing
so, BLM sets its inspection goals based on fixed production volumes that apply
nationwide. For example, for many years the threshold for cases requiring an
annual inspection was 12,000 barrels of oil per month or 120,000 cubic feet of
natural gas.

We found no logical methodology for BLM’s production inspection strategy
thresholds. BLM decreased the monthly production thresholds in fiscal year 2009
to 6,000 barrels of oil and 80,000 cubic feet of gas, which increased the number of
production inspections required. We do not know if this threshold change was
appropriate as it was not supported by any methodology.


“National I&E strategy needs revision to reflect more emphasis
on low production wells, if workforce capability is limited.”

    - Survey Comment

We also believe BLM’s annual strategy places too much focus on high-production
wells. Operators, however, may underreport or purposefully maintain low
production levels to avoid the additional costs of plugging and abandoning wells.
From interviews and through the online survey, PETs informed us that low-
producing cases should be inspected more often. Although it is appropriate to
inspect high producing cases, this should not be at the expense of excluding low-
producing cases.

 Recommendations

     1. Develop and document a logical methodology for the production
        inspection thresholds.

     2. Develop a production inspection scheduling strategy that
        appropriately balances high- and low-producing cases and an
        operator’s compliance history.



                                                                                 7
Resource Assessment
BLM has a history of not completing its required number of production
inspections. From fiscal year 2006 through fiscal year 2009, BLM reported it had
inspected only 39 percent of its required annual inspections caseload and 55
percent of its 3-year inspections. For fiscal year 2009 alone, the bureau
determined that it needed to conduct 9,394 production inspections but planned to
perform only 7,104. The official database ultimately reported completion of only
3,703 inspections, 39 percent of those required. BLM officials explained that the
discrepancy resulted from insufficient funding to staff the PET workforce. We
found the current workforce is at less than full readiness with nearly 10 percent of
PET positions unfilled and approximately one in five of these personnel
uncertified.




Figure 4. Inspections are often conducted in remote locations. Source: OIG.

BLM officials told us that many critical environmental inspections are not being
done because certain field offices, especially in Wyoming and New Mexico, have
experienced significant increases in applications for permits to drill. Market
conditions influence field office workloads that follow boom and bust cycles. As
a result, during boom periods there is an increase in demand on field offices to
process drilling permits. BLM suggests that spending time to inspect producing
wells is difficult when the inspection staffing level has stagnated. Field offices
also report a lack of necessary resources to effectively fulfill their environmental
responsibilities. Further, they said they do not know how much it would cost to
fulfill those responsibilities annually.
                                                                                   8
We noted that both environmental and production inspections would benefit from
a complete workload and workforce analysis after taking into consideration a
revised inspection strategy as suggested in Recommendation 1. BLM does not
have a current workload analysis to help them determine their workforce needs. A
workload analysis of permitting activities was completed in 2005 and updated in
2006. A more current analysis would allow managers to determine optimum size
and composition of the workforce required to perform inspections effectively. We
expect that a current workload and workforce analysis may indicate that shifting
staff from one field office to another according to need, would more effectively
meet workload requirements while alleviating the need for substantially more
personnel.

Although we concur that additional inspectors could help meet the inspection
strategy, we do not believe that increased funding is the primary solution as we
found that improving inspection efficiencies would improve BLM’s ability to
keep pace with caseloads and extend its limited resources. Specifically, we noted
that BLM lacks a comprehensive policy for industry self-inspections even though
such a policy is recommended in BLM’s “The Gold Book,” 4 and is required by
Onshore Oil and Gas Order No. 3 for site security. As part of the development of
such a policy, a responsible official acting for the operator would be required to
sign a written certification to validate the self-inspection. This would hold the
company accountable for the reliability of the self-inspection. Making the results
of self-inspections available for review by PETs and other inspectors assigned to
spot-check operators’ work could free up time for additional onsite inspections.

    Recommendations
      1.
       3. Perform a workload and workforce analysis of all inspectors to
          determine the most effective use of personnel and to assess whether a
          request for additional resources is warranted. This analysis should
          include determining whether inspectors are located in appropriate
          areas and whether they could assist in high volume areas on an as-
          needed basis.

        4. Establish criteria and eligibility requirements for more industry self-
           inspections, including specific criteria and verification that self-
           inspections are adequately completed. Operators with a history of
           significant and chronic violations should not be permitted to perform
           self-inspections.




4
 Bureau of Land Management, Surface Operating Standards and Guidelines for Oil and Gas Exploration and
Development: The Gold Book, 4th ed. (2007)

                                                                                                     9
Quality of Inspections

 “Some inspectors even just pencil whip an inspection to
make it appear they are working and even possibly file
false reports.”
       - Survey Respondent


Inspections are frequently performed in remote areas by individual inspectors who
have only infrequent, direct supervision. In fiscal years 2008 and 2009, for
example, oversight inspections where a supervisor accompanied a PET were
conducted for only about 10 percent of the technical inspections (e.g., drilling,
plugging, production, and workover inspections). Moreover, PETs were not
required to include in the official files, photographic or other evidence that
inspections had been performed. At one field office, a PET disclosed that the data
concerning multiple inspections had been erroneously recorded. In addition,
survey respondents indicate that incomplete inspections, or aspects of inspections,
still may be recorded as complete, a process informally known as “pencil
whipping.”

BLM does not have standardized and written oversight inspection and file
documentation protocols across the I&E Program that would ensure quality
inspections are completed and potential infractions identified. Also, BLM does
not conduct peer reviews of the state or field offices.

 Recommendations

     5. Develop and implement standardized and written oversight inspection
        and file documentation protocols to improve the quality of
        inspections. These protocols should include increasing the number of
        oversight inspections conducted by supervisors and requiring evidence
        in the inspection report files to demonstrate inspections were actually
        performed.

     6. Conduct periodic peer reviews that evaluate the overall performance
        of the I&E Program at state and field offices.


Oil and Gas Regulations
Online survey respondents and interviewees frequently indicated that inspection
efforts are hampered because of provisions in the bureau’s regulations that have

                                                                                 10
not kept up with modern technology. Most notably, six of the seven Onshore Oil
and Gas Orders, which address activities such as drilling operations, the
measurement of oil and gas, and site security, are outdated as they were enacted in
the late 1980s and early 1990s. Also, BLM has not officially enacted two
additional onshore orders that are needed to guide operators.

Another area of concern is environmental inspections. The increased emphasis on
finding and developing new oil and gas resources on public lands makes
environmental protection imperative. Environmental inspections may be deferred
in favor of the high-production leases. Environmental compliance inspectors
average just 15 percent of their time on inspection and enforcement activities,
with most of their time spent on processing drilling permits.

BLM issues best practices on the conditions under which environmental
inspections should be performed. These policies, however, are not published
formally. Without formal publication, the I&E Program lacks a source of long-
term guidance for completing environmental inspections.

 Recommendation

     7. Ensure that oil and gas regulations are current by updating and issuing
        onshore orders, and formally publishing environmental inspection
        policies.


Effectiveness of Enforcement Actions
Our survey showed that 48 percent of all respondents and 51 percent of PETs
reported current enforcement tools are insufficient to ensure operator compliance.
One technician said, “The monetary amounts of assessments and penalties have
not kept up with inflation.” Another commented, “Fines are too small and not
permitted soon enough when necessary.” “The process should be streamlined,”
said a third, “so that it is not such a long process to issue monetary assessments
and penalties. Industry might pay more attention to us and what is going on in the
field.” About INCs, another technician said, “Current enforcement tools do not
really deal with repeat offenders who are continually written up (or given verbal
INCs) for the same violation each year.”

Seventy-eight percent of PETs said supervisors supported their INCs and other
enforcement actions, but 10 percent expressed a desire for greater support. We
found no evidence that inadequate supervisory or management support impairs
the effectiveness of the I&E Program. We did find, however, that INCs and other
enforcement actions at the field office level are inconsistently applied or enforced.
We also found that they are not resolved or followed up in a timely manner. For
instance, some field offices use verbal warnings while others do not. Some issue
verbal warnings for a major INC even though BLM policy only allows verbal
warnings for minor INCs.
                                                                                  11
Followup actions to verify that violations have been corrected are inconsistent.
Followup mostly occurs in conjunction with major INCs, less often for minor
INCs, if completed at all. Despite the lesser classification, minor INCs may
address significant deficiencies, and the corrections of the violations need to be
verified. Without performing this important step, violations may not be resolved
until the next inspection, which may take years.

Another enforcement challenge is the failure of current monetary assessments and
civil penalties to serve as a deterrent for operator noncompliance. The fines
structure for assessments and civil penalties is outdated. Set in the early 1980s,
assessments are fixed at $250 for a minor INC and $500 per day for a major INC.
Civil penalties range from $500 to $10,000 per day depending upon how long the
infraction or infractions have not been corrected. Nearly 30 years later, these low
monetary penalties can be far below a company’s daily operating costs and,
accordingly, inconsequential to many operators.

Had these rates kept pace with inflation, they should have doubled since 1983. A
minor INC, for instance, should cost operators $543 and a major INC $1,085 per
day. Based upon the inflation rate, civil penalties would also have substantially
increased, growing from $500 to $1,085 and from $10,000 to $21,700 per day.
Since these amounts are fixed by statute, however, they would require
congressional action to change.

Thirty-eight percent of employees surveyed responded that every INC should
include a monetary assessment. There are only four circumstances under which
inspectors have the authority to assess an immediate monetary fine. These include
drilling wells without approval, drilling wells without blowout prevention
equipment, plugging and abandoning wells without approval, and improperly
removing Federal seals. Security seals that have been broken or otherwise
tampered with on tanks, meters, and other production equipment indicate a
possible theft of oil or gas.




                                                                                 12
Figure 5. Green security seal attached to a closed meter. Source: OIG.

Current BLM policies do not allow for immediate assessments for chronic
offenders. As a result, at times there is little incentive for companies to meet their
regulatory responsibilities. For example, some operators accumulate more than
100 violations in a single year. This presents a challenge to PETs in their efforts
to achieve the I&E Program’s main objective, to ensure regulatory compliance.




                                                                                    13
 Recommendations

     8. Improve the consistency and timely resolution of enforcement actions
        by issuing enforcement actions and following up on those findings
        according to established policy.

     9. Enhance the deterrent for operator noncompliance by increasing the
        dollar amount of monetary assessments, seeking congressional action
        for increasing civil penalties, and expanding the infractions for which
        immediate assessments may be issued.


Database Integrity
I&E Program information in the Automated Fluid Minerals Support System
(AFMSS), the official electronic database, is not fully functional either for
managers or for employees. For example, PETs remarked that they spend too
much time recording data into AFMSS in the office rather than conducting
inspections in the field. Field office personnel also claimed they could do 30 to 40
percent more environmental inspections if inspectors had access to wireless
technology.

Only 42 percent of survey respondents claimed that data in AFMSS was accurate,
complete, and useful. Most considered the system difficult to work with and noted
they had not received sufficient training on how to use it.

Based on our limited review of AFMSS, it appeared that data entry controls are
inadequate. Our analysis disclosed a significant amount of erroneous data. For
example, about 10 percent of the correction dates for violations and 31 percent of
followup dates recorded in fiscal years 2008 and 2009 for a four-state sample
proved incorrect. In addition, substantial data from wells on Indian leases have
not been entered into the system. We also found numerous inspection entries were
left open in AFMSS for multiple years.

BLM has difficulty in obtaining accurate program performance data from
AFMSS. For example, in its budget justification for fiscal year 2010, the bureau
reported completing 5,386 production inspections for fiscal year 2008. Only 4,909
were recorded in AFMSS, a difference of 477. The database did not allow us to
verify the accuracy of either figure.

BLM cannot completely verify which oil and gas wells have or have not been
inspected. BLM also cannot always determine the type of inspection required and
when the next one is due. For example, BLM cannot ensure that all wells had an
environmental inspection. Some wells may not have been inspected for many
years. This practice leaves lands managed by DOI, other Federal agencies, and
private surface owners vulnerable to environmental damage. Further, BLM lacks

                                                                                  14
accurate workload data to allow managers to plan environmental inspections
based on the number of oil and gas wells located on Federal and Indian lands. Due
to this absent data, we could not determine the extent that environmental
inspections should have been performed.

 Recommendation

     10. Develop and implement an AFMSS Data Integrity Plan to ensure the
         reliability of inspection data in AFMSS. The Plan should include data
         entry controls, expediting data entry, and enabling inspectors to enter
         data remotely.


Training Requirements
BLM policy requires certified PETs to receive updated training every 5 years, but
this training has not been provided since 2002. The I&E Program’s certification
manual states that these technicians should not conduct inspections if they have
not received the required refresher training. PETs, however, continue to conduct
inspections even though the 5-year period has elapsed. This situation causes many
inspectors to be classified as “uncertified” since the training has not been
provided by the agency. BLM does not have a “test-out” option whereby PETs
can demonstrate their proficiency through an examination thereby enabling them
to retain certification.


“For surface management, there is little training and
direction with regards to the I&E Program.”
       - Survey Respondent


Environmental inspectors and PATs receive only minimal training. The training
lasts about a week and does not include a competency examination. Surface
compliance specialists include environmental inspectors, including sub-
disciplines such as natural resource specialists, environmental protection
specialists, biologists, botanists, and hydrologists, all for which general training is
available. However, such training is not specific to the needs of environmental
inspectors and PATs. Insufficient training for these disciplines has led to
inconsistent environmental inspections.

Currently, no formal on-the-job training or mentoring programs exist. As a result,
both training and mentoring are highly unstructured and their effectiveness varies
from office to office. One respondent remarked they have “no OJT other than
read, read, read.”

                                                                                    15
In addition, we observed in interviews that some PETs need training in how to
recognize and report instances of fraud.

 Recommendation

     11. Improve I&E Program training by ensuring that refresher training is
         provided to PETs as required by BLM policy; improving the training for
         environmental inspectors and PATs, including the institution of a
         formal certification or competency examination; providing periodic
         fraud awareness training; and improving on-the-job training and
         mentoring.


Retention Plan
“The PET certification class is top notch,” said one survey respondent, “and I
would recommend that anyone involved with the I&E Program take it.”
Nevertheless, in spite of the considerable investment of both time and money for
inspectors’ training, the I&E Program risks losing its inspectors once they are
trained. Interviewees told us that trained PETs are sought after by operators.
Further, I&E Program officials confirmed that oil and gas operators commonly
recruit PETs with inducements of high salary offers during successful business
periods, most recently in 2008. Because of the cyclical nature of the oil and gas
industry, future episodes of industry recruiting from BLM is likely.

We found that industry is not the only threat to BLM’s retention of its inspection
workforce. During our fieldwork, a PET who had completed the certification
requirements paid for by the I&E Program was in the process of transferring to
the Bureau of Ocean Energy Management, Regulation and Enforcement to
conduct that bureau’s inspections. BLM does not have a continued service
agreement that requires newly certified PETs to stay with the agency for a
specified period of time.

 Recommendation

     12. Develop and implement a PET Retention Plan and consider continued
         service agreements requiring PETs to remain under BLM employment
         for a specified number of years following certification.




                                                                                 16
Conclusion and Recommendations
Conclusion
Assessing the success of the I&E Program is more than just reviewing statistics
on the number of inspections performed and enforcement actions initiated. Simply
performing more inspections and issuing more INCs does not ensure industry
compliance with laws and regulations. Since oil and gas operations take place
continuously on thousands of public land leases, the I&E Program cannot provide
absolute assurance that operators are in full compliance at all times. Our
recommendations, however, may allow BLM to extend its limited resources,
improve the quality of inspections, and enable inspectors to spend more time in
the field providing greater regulatory oversight.

Summary of Recommendations
   1. Develop and document a logical methodology for the production
      inspection thresholds.

   2. Develop a production inspection scheduling strategy that appropriately
      balances high- and low-producing cases and an operator’s compliance
      history.

   3. Perform a workload and workforce analysis of all inspectors to determine
      the most effective use of personnel and to assess whether a request for
      additional resources is warranted. This analysis should include
      determining whether inspectors are located in appropriate areas and
      whether they could assist in high volume areas on an as-needed basis.

   4. Establish criteria and eligibility requirements for more industry self-
      inspections, including specific criteria and verification that self-
      inspections are adequately completed. Operators with a history of
      significant and chronic violations should not be permitted to perform self-
      inspections.

   5. Develop and implement standardized and written oversight inspection and
      file documentation protocols to improve the quality of inspections. These
      protocols should include increasing the number of oversight inspections
      conducted by supervisors and requiring evidence in the inspection report
      files to demonstrate inspections were actually performed.

   6. Conduct periodic peer reviews that evaluate the overall performance of the
      I&E Program at state and field offices.

   7. Ensure that oil and gas regulations are current by updating and issuing
      onshore orders, and formally publishing environmental inspection
      policies.
                                                                                17
8. Improve the consistency and timely resolution of enforcement actions by
   issuing enforcement actions and following up on those findings according
   to established policy.

9. Enhance the deterrent for operator noncompliance by increasing the dollar
   amount of monetary assessments, seeking congressional action for
   increasing civil penalties, and expanding the infractions for which
   immediate assessments may be issued.

10. Develop and implement an AFMSS Data Integrity Plan to ensure the
    reliability of inspection data in AFMSS. The Plan should include data
    entry controls, expediting data entry, and enabling inspectors to enter data
    remotely.

11. Improve I&E Program training by ensuring that refresher training is
    provided to PETs as required by BLM policy; improving the training for
    environmental inspectors and PATs, including the institution of a formal
    certification or competency examination; providing periodic fraud
    awareness training; and improving on-the-job training and mentoring.

12. Develop and implement a PET Retention Plan and consider continued
    service agreements requiring PETs to remain under BLM employment for
    a specified number of years following certification.




                                                                              18
Appendix 1: Scope and Methodology
Scope
The scope comprised all onshore oil and gas leases located on Federal and Native
American lands (except lands owned by the Osage Nation).

Methodology
Our methodology comprised the following steps:
   • Reviewed applicable laws, regulations, policies, and procedures.
   • Analyzed funding, annual inspection strategy, inspection data, and other
      program documents.
   • Conducted an online survey of Bureau of Land Management (BLM)
      employees, receiving 421 responses.
   • Obtained industry’s perception of the Inspection and Enforcement
      Program, conducting interviews with the Independent Petroleum
      Association of Mountain States (now the Western Energy Alliance);
      Williams Company; EnCana Oil and Gas (USA) Inc.; BOPCO, LP; and
      Black Hills Exploration and Production.

We visited 13 BLM offices where we interviewed about 100 bureau employees,
reviewed lease files, and observed field inspections. The sites visited were
Bakersfield, CA; Durango, Glenwood Springs, Grand Junction, Lakewood, and
Meeker, CO; Moore, OK; Farmington, NM; Vernal, UT; Buffalo, Casper, and
Pinedale, WY; and Washington DC.

We performed the fieldwork from November 2008 to January 2010. We
conducted this review in accordance with the Quality Standards for Inspections
adopted by the Council of the Inspectors General on Integrity and Efficiency.




                                                                                 19
Appendix 2: Employee Survey Results
         What is your job position?                    If you are a PET, are you
Env.
Spec.                                                          certified?
 6%             Other
                 21%                  PET                         No
                                      38%                         19%
          NRS                                                             Yes
          17%        PAT       PE                                         81%
                      7%      11%




PE = Petroleum Engineer, PET = Petroleum Engineering Technician, PAT =
Production Accountability Technician, NRS = Natural Resource Specialist, Env.
Spec. = Environmental Specialist


        How long have you worked                                Are you a
          in the I&E Program?                              supervisor/manager?
              > 10         0-1 year
             years                                                         Yes
                             16%
              29%                                                          17%
                                         2-3
             6-10                       years
                        4-5
             years                       26%                        No
                       years
              19%                                                   83%
                        10%




Note: In the following charts and graphs, the totals may not equal 100 percent
because “Not Applicable” responses were excluded.


        Do you agree with the                       BLM appropriately prioritizes
        annual strategy of the                     the inspection workload at the:
            I&E Program?

                                                  Local     24%         42%      17% 11%   4%
                                                  Office
          No,
          34%                                   National   8% 23%         33%    20% 10%
                           Yes,                  Office
                           66%
                                                    Strongly Agree         Agree
                                                    Neutral                Disagree
                                                    Strongly Disagree



                                                                                                20
                    At the following organizational levels, management
                    provides sufficient direction and support for the I&E
                                           Program.

            District/Field Office           29%                      35%                 15%         13% 5%

                    State Office      14%              33%                    23%              19%         8%

             Washington Office       14%              30%                    24%             20%           10%

                    Strongly Agree    Agree        Neutral        Disagree      Strongly Disagree




Overall, the I&E Program is operating effectively.
                                                        11%               47%                22%       16% 3%


Communications and coordination between the
I&E Program and MMS are effective.                     2% 16%                 43%               17%        12%


I believe the I&E Program data entered in
AFMSS is accurate, complete, and provides               9%          33%            18%         27%         11%
useful information for inspectors and managers.
I believe operators consider the I&E Program a
strong     deterrent   that    helps   prevent          12%           34%              26%           20%    8%
noncompliance with regulations.
An oral warning is an effective method of
enforcement.                                                16%            40%            18%        15% 10%


BLM should include an immediate assessment
with each INC to improve industry compliance.               19%       19%          24%          26%        11%


Enforcement tools are sufficient to ensure that
operators comply with regulations.                      9%         26%        16%         30%          18%


INCs and orders issued at my office are
supported by my supervisors and appropriately                26%                   45%             14% 9%3%
resolved on a timely basis.
I have received sufficient training to help me
perform my job duties.                                        29%                34%           14%    15% 6%


              Strongly Agree        Agree         Neutral         Disagree         Strongly Disagree
            Percentages do not equal 100 due to exclusion of "Not Apllicable" responses.




                                                                                                                 21
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
